     DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106
March 25, 2010

Report Number: A-07-09-00312

Ms. Sandy Coston
President and Chief Executive Officer
First Coast Service Options, Inc.
532 Riverside Avenue
Jacksonville, FL 32202

Dear Ms. Coston:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by First Coast Service Options, Inc., for Fiscal Years 2004 Through 2007. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338 or through email
at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00312 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


  REVIEW OF PENSION COSTS
   CLAIMED FOR MEDICARE
     REIMBURSEMENT BY
FIRST COAST SERVICE OPTIONS,
   INC., FOR FISCAL YEARS
    2004 THROUGH 2007




                       Daniel R. Levinson
                        Inspector General

                          March 2010
                         A-07-09-00312
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).

FCSO participates in a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

OBJECTIVE

Our objective was to determine the allowability of pension costs that FCSO claimed for
Medicare reimbursement for fiscal years (FY) 2004 through 2007.

SUMMARY OF FINDING

FCSO did not claim $124,189 of pension costs that were allowable for Medicare reimbursement
for FYs 2004 through 2007. The underclaim occurred primarily because FCSO based its pension
cost calculations on misstated Medicare segment pension assets. FCSO used the incorrect
pension cost calculations to claim $20,878,353 for Medicare reimbursement. We calculated
allowable pension costs for FYs 2004 through 2007 in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $21,002,542, a difference of $124,189.

RECOMMENDATIONS

We recommend that FCSO:

   •   increase its Final Administrative Cost Proposal pension costs by $124,189 and

   •   ensure that future pension cost claims are in accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our recommendations. FCSO’s
comments are included in their entirety as Appendix B.




                                                i
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              First Coast Service Options, Inc ..........................................................................1
              Medicare Reimbursement of Pension Costs ........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope ....................................................................................................................1
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATIONS...............................................................................2

          FEDERAL REQUIREMENTS........................................................................................2

          ALLOWABLE PENSION COSTS NOT CLAIMED .....................................................3

          RECOMMENDATIONS .................................................................................................3

          AUDITEE COMMENTS.................................................................................................3

APPENDIXES

          A: ALLOWABLE MEDICARE PENSION COSTS FOR FIRST COAST
             SERVICE OPTIONS, INC., FOR FISCAL YEARS 2004 THROUGH 2007

          B: AUDITEE COMMENTS




                                                                     ii
                                                INTRODUCTION

BACKGROUND

First Coast Service Options, Inc.

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS). 1

FCSO participates in a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms. 2

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that FCSO claimed for
Medicare reimbursement for fiscal years (FY) 2004 through 2007.

Scope

We reviewed $20,878,353 of pension costs that FCSO claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 2004 through 2007. Achieving our
objective did not require that we review FCSO’s overall internal control structure. However, we
reviewed the internal controls related to the pension costs claimed for Medicare reimbursement
to ensure that the pension costs were allocable in accordance with the CAS and allowable in
accordance with the FAR.

We performed fieldwork at FCSO’s office in Jacksonville, Florida, in February and March 2009.




1
 FCSO’s parent company, Blue Cross Blue Shield of Florida, Inc., novated the contracts to FCSO effective
October 1, 2003. Prior to that, FCSO managed the contracts by special power of attorney on behalf of its parent
company.
2
    FCSO participates in employee benefit plans of its parent company, such as the defined benefit pension plan.


                                                           1
Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed FCSO’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 2004 through 2007. We also determined the extent to which FCSO
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on FCSO’s historical practices and on the results of our
segmentation review, Review of Medicare Contractor’s Pension Segmentation Requirements at
First Coast Service Options, Inc., for the Period January 1, 2003, to January 1, 2008
(A-07-09-00311).

In performing our review, we used information that FCSO’s actuarial consulting firm provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined FCSO’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

FCSO did not claim $124,189 of pension costs that were allowable for Medicare reimbursement
for FYs 2004 through 2007. The underclaim occurred primarily because FCSO based its pension
cost calculations on misstated Medicare segment pension assets. FCSO used the incorrect
pension cost calculations to claim $20,878,353 for Medicare reimbursement. We calculated
allowable pension costs for FYs 2004 through 2007 in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $21,002,542, a difference of $124,189.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.



                                               2
CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

FCSO did not claim $124,189 of allowable Medicare pension costs for FYs 2004 through 2007.
During that period, FCSO claimed pension costs of $20,878,353 for Medicare reimbursement.
We calculated allowable pension costs based on separately computed CAS pension costs for the
Medicare segment and the “Other” segment in accordance with CAS 412 and 413. Based on the
terms of the Medicare contracts, the allowable CAS pension costs for this period totaled
$21,002,542.

The following table compares allowable CAS pension costs with the pension costs claimed on
FCSO’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs
                                 Medicare Pension Costs
                                Allowable      Claimed
                Fiscal Year     Per Audit     By FCSO      Difference
                    2004         $4,842,392    $4,824,359      $18,033
                    2005          5,125,910      5,019,900     106,010
                    2006          5,480,423      5,376,181     104,242
                    2007          5,553,817      5,657,913   (104,096)
                    Total       $21,002,542 $20,878,353      $124,189

The Medicare contracts require FCSO to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, due to misstated Medicare segment pension assets,
FCSO based its claim on incorrect pension cost calculations. As a result, FCSO underclaimed
$124,189 of allowable pension costs.

RECOMMENDATIONS

We recommend that FCSO:

   •   increase its Final Administrative Cost Proposal pension costs by $124,189 and

   •   ensure that future pension cost claims are in accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our recommendations. FCSO’s
comments are included in their entirety as Appendix B.




                                                3
APPENDIXES
                                                                                                                      Page1of3

                            APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR 

                                     FIRST COAST SERVICE OPTIONS, INC., 

                                    FOR FISCAL YEARS 2004 THROUGH 2007 


                                                                    Total              "Other"           Medicare          Total
     Date         I             Description                    I   Company        I    Segment       I   Segment      I   Medicare

     2003         Plan Year Allowable Pension Cost        11 	                          $809.240         $3,933,548

     2004         Contributions                           21       $66,154,448        $66,154,448                $0
    7.50%         Discount for Interest                   31       ($4,615,427)       ($4,615,427)               $0
January 1, 2004   Present Value Contributions             41       $61,539,021        $61,539,021                $0
                  Prepayment Credit Applied               51       $37,453,330        $32,796,089        $4,657,241
                  Present Value of Fllllding              61       $98,992,351        $94,335,110        $4,657,241

January 1, 2004 	 CAS Funding Target                      71       $37,453,330        $32,796,089        $4,657,241
                  Percentage Fllllded                     81                              100.00%           100.00%
                  Fllllded Pension Cost                   91                          $32,796,089        $4,657,241
                  Allowable Interest                     101                                   $0                $0
                  Allocable Pension Cost                 111                          $32,796,089        $4,657,241
                  Medicare LOB* Percentage               121                                1.87%            91.52%
                  Plan Year Allowable Pension Cost       131                             $613,287        $4,262,307

     2004         Fiscal Year Allowable Pension Cost     141 	                          $662,275         $4,180,117       $4,842,392

     2005         Contributions                                    $53,032,360        $53,032,360                $0
    7.50%         Discount for Interest                            ($3,699,932)       ($3,699,932)               $0
January 1, 2005   Present Value Contributions                      $49,332,428        $49,332,428                $0
                  Prepayment Credit Applied                        $42,719,885        $37,543,336        $5,176,549
                  Present Value of Fllllding                       $92,052,313        $86,875,764        $5,176,549

January 1, 2005 	 CAS Funding Target                               $42,719,885        $37,543,336        $5,176,549
                  Percentage Fllllded                                                     100.00%           100.00%
                  Fllllded Pension Cost                                               $37,543,336        $5,176,549
                  Allowable Interest                                                           $0                $0
                  Allocable Pension Cost                                              $37,543,336        $5,176,549
                  Medicare LOB* Percentage                                                  1.40%            90.48%
                  Plan Year Allowable Pension Cost                                       $525,607        $4,683,742

     2005         Fiscal Year Allowable Pension Cost 	                                  $547,527         $4,578,383       $5,125,910

     2006         Contributions                                    $15,000,000        $15,000,000                $0
    7.50%         Discount for Interest                            ($1,046,512)       ($1,046,512)               $0
January 1, 2006   Present Value Contributions                      $13,953,488        $13,953,488                $0
                  Prepa'yTIlent Credit Applied                     $44,346,100        $38,641,861        $5,704,239
                  Present Value of Fllllding                       $58,299,588        $52,595,349        $5,704,239

January 1, 2006 	 CAS Funding Target                               $44,346,100        $38,641,861        $5,704,239
                  Percentage Fllllded                                                     100.00%           100.00%
                  Fllllded Pension Cost                                               $38,641,861        $5,704,239
                  Allowable Interest                                                           $0                $0
                  Allocable Pension Cost                                              $38,641,861        $5,704,239
                  Medicare LOB* Percentage                                                  1.46%            87.77%
                  Plan Year Allowable Pension Cost                                       $564,171        $5,006,611

     2006         Fiscal Year Allowable Pension Cost 	                                  $554,530         $4,925,893       $5,480,423
                                                                                                     I                I
                                                                                                                                 Page 2 of3




                                                                                Total           "Other"            Medicare           Total
            Date             I             Description                     I Company I          Segment        I   Segment       I   Medicare
            2007             Contributions                                            $0                $0                 $0
           7.50%             Discount for Interest                                    $0                $0                 $0
       January I, 2007       Present Value Contributions                              $0                $0                 $0
                             Prepa'yTIlent Credit Applied                    $46,710,129       $40,954,639         $5,755,490
                             Present Value of Fllllding                      $46,710,129       $40,954,639         $5,755,490

       January I, 2007       CAS Funding Target                              $46,710,129       $40,954,639         $5,755,490
                             Percentage Fllllded                                                   100.00%            100.00%
                             Fllllded Pension Cost                                             $40,954,639         $5,755,490
                             Allowable Interest                                                         $0                 $0
                             Allocable Pension Cost                                            $40,954,639         $5,755,490
                             Medicare LOB* Percentage                                                1.19%             87.93%
                             Plan Year Allowable Pension Cost                                     $487,360         $5,060,802

            2007             Fiscal Year Allowable Pension Cost                                   $506,563         $5,047,254        $5,553,817
                                                                                                               I                 I

       * Line of business.

FOOTNOTES

1L We obtained the 2003 plan year (PY) (January 1 - December 31) allowable pension costs from our prior review (A-07-04-00180;
       issued February 8, 2005).

2l.. We obtained Total Company contribution amOllllts and dates of deposit from Internal Revenue     Service Form 5500 reports. The
       contributions included deposits made during the PY and accrued contributions deposited after the end of the PY but within the time
       allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension segmentation
       review (A-07 -09-00311). The amOllllts shown for the "Other" segment represent the difference between the Total Company and the
       Medicare segment.

JL We subtracted the interest that was included in the contributions deposited after the begiIliling of the valuation year to discount the
       contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
       between the present value of contributions (at the valuation interest rate) and actual contribution amounts .

.:!L    The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the PY.
       For purposes of this Appendix, we deemed deposits made after the end of the PY to have been made on the final day of the PY,
       consistent with the method mandated by the Employee Retirement Income Security Act.

2!.. A prepayment credit represents the accumulated value of premature funding from the previous year(s).   A prepayment credit is created
       when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A prepayment credit is
       carried fOIWard, with interest, to fund future CAS pension costs.

§i. 	The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that
     is available to cover the CAS funding target measured at the first day of the PY.

11. The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal
       Acquisition Regulation (FAR) 31.205-6GlC2Xi) .

.§L 	 The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY. Because any
      funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.S0(c)(1) (as amended), the
      funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS
      funding target. For purposes of illustration, the percentage of funding has been rounded to four decimals.
                                                                                                                            Page 3 of3




 2!... We computed the fllllded CAS pension cost as the CAS fllllding target multiplied by the percent funded.

101 	We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the interest on
    contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(j X2)(iii),
    which does not permit the allowable interest to exceed the interest that would accrue if the CAS fllllding target, less the prepayment
    credit, were fllllded in four equal installments deposited within 30 days after the end of the quarter.

ill The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

121 	We calculated PY allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB)
    percentage of each segment. We determined the LOB percentages based upon information provided by FCSO.

131 We computed the PY allowable Medicare pension cost as the allocable pension cost multiplied by the Medicare LOB percentage.


141 	We converted the PY allowable pension costs to a fiscal year (FY) basis (October 1 through September 30). We calculated the FY
    pension costs as 1/4 of the prior year's costs plus 3/4 of the current year's costs. Pursuant to CAS 412 and 413, the total Medicare
    allowable pension costs charged to the Medicare contract consisted of the Medicare segment's direct pension costs plus "Other"
    segment pension costs attributable to indirect Medicare operations.
                                           APPENDIX B: AUDITEE COMMENTS 





      ~I~~                                                                                                            cAllsj
FIRST COAST
SERVI6, O PT IONS, INC.
                                                                                                            ---''''''''-1
_ ..   , m: ItIt ":: I '''''''' ''' . ~ .......,.   .. 
                                                                    MEDICARE


                                                                                                                              San dy Costo n
                                                                                                                           CEO & President
                                                                                                               Finl Coast S8Mc8 Optio"" . Inc;.
                                                                                                                     S ~ ndy _ c<>.ron @ IC$Q_ com




March 12, 2010

Mr. Patrick J . Cogley
Reg ional Inspector General fOf Audit Services
Office of Inspector General
Office of Audit Services
601 Easl l ztt' Street, Room 0429
Kansas City, Missouri 64106

Dear Mr. Cogley:

Reference: A-07 -09.o031 2

The purpose of this letter is                        to    submit ou r response to the Department of Health and Human Services Office of
Inspector General's draft report for tile review of the Medicare pension costs claimed by First Coast Service
Options (FCSO) for fiscal years 2004-2007. 


We agree with the report finding rega rding the under claimed pension costs of $124,189 and wi ll take the 

following actions to ensu re the report recommendations are implemented: 


             1) Follow CMS guidelines lor fi scal years 2004 -2007                     to increase the claimed pe nsio n costs by $124,1e9,
             2)     Update Medicare segment assets in accorda nce with the appropriate cost accoun ting standards.

Add itionally, we are worl< in 9 with ou r actuari es to ensure that Medicare segment assets are updated in
accordance with Medica re contractual requirements.

We appreciate the opportunity to review and prov ide our comments prior to release of the final re port. If you have
any questio ns regard ing our respo nse, p~ase contact Mr. Gregory England at 904·791--8364.

Sincerely,

  ~fU1Jy-- {',.,k..
Sandy Coston

cc:          Jonathan Hogan, VP & CFO, FCSO
             Gregory En91and, Oirector of Interna l Aud it. FCSO
             Brenda Francisco, Director of Medicare Reporting , FCSO
             Cheryl Mose, VP & Corporate Controller, BCBSF
             Jay Pinkerton, VP , JP Morgan

532 R""'rtid(tAv(tn ue , J ..cho nvi l" . Florid. 32202
" .0 BOlO. 45274, JKl<$(I!1Y ~", FIc Mda 32232·5274
To" 904.79 1--&4 09
Fax: 904·361 -0372
www.lao.c:om
